                        u.s. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                 AUDITING DIVISION



                                                                AUDIT REPORT
                                                       Issue Date: November 15, 2007

                                                       Number: 8-03

To:            Steven C. Preston
               Administrator

              Jennifer Main
              Chief Financial Officer

From:          Debra Ritt. [Exemption 6]
               Assistant Inspector General for Auditing

SUbject:       Audit ofSBA's FY 2007 Financial Statements


        Pursuant to the Chief Financial Officer's Act of 1990, attached are the Independent
Auditors' Report and accompanying reports on internal control and compliance with laws
and regulations issued by KPMG LLP for the fiscal year ending September 30, 2007. The
audit was performed under a contract with the Office of Inspector General (OIG) and in
accordance with Generally Accepted Government Auditing Standards; Office of
Management and Budget's (OMB) Bulletin 07-04, Audit Requirements for Federal
Financial Statements, the Government Accountability Office (GAO)lPresident's Council on
Integrity and Efficiency (pCIE) Financial Audit Manual and GAO's Federal Information
System Controls Audit Manual.

         The KPMG report concluded that SBA's consolidated financial statements presented
fairly, in all material respects, the financial position of SBA as of and for the years ended
September 30, 2007 and 2006. It also presented fairly, in all material respects, SBA's net
costs, changes in net position, and combined statements of budgetary resources for the years
then ended.

        With respect to internal control over financial reporting, KPMG reported a
significant deficiency related to Information Technology security controls, but did not
consider this deficiency to be a material weakness. Details regarding this significant
deficiency are discussed more in Exhibit 1 of the Independent Auditors' Report.
       KPMG's test for compliance with certain laws, regulations, contracts and grant
agreements determined that the Agency does not fully comply with the Debt Collection
Improvement Act (DCIA) of 1996 because SBA does not consistently follow Treasury
guidelines when referring delinquent debts for collection. Details regarding the auditor's
conclusion are included in the Compliance and Other Matters section of the Independent
Auditor's Report. The auditors did not report any other instances or matters regarding
noncompliance.

        We provided a draft ofKPMG's report to SBA's Chief Financial Officer (CFO),
who concurred with its findings and recommendations and agreed to implement the
recommendations. The CFO is pleased that SBA has received an unqualified audit opinion
with no reported material wealcnesses and believes these results accurately reflect the quality
of the Agency's financial statements and its imprOVed accounting, budgeting and reporting
processes. The CFO also acknowledged that SBA was not in compliance with the DCIA,
and outlined Agency plans to improve standard operating procedures.

       We reviewed a copy ofKPMG's report and related documentation and made
necessary inquiries of their respective representatives. Our review was not intended to
enable us to express, and we do not express, an opinion on the SBA's financial statements,
KPMG's conclusions about the effectiveness ofintemal control, or its conclusions about
SBA's compliance with laws and regulations. However, our review disclosed no instances
where KPMG did not comply, in all material respects, with Generally Accepted Government
Auditing Standards.

       We appreciate the cooperation and assistance ofSBA and KPMG. Should you or
your staffhave any questions, please contact me at    [Exemp 2] or Jeffrey R. Brindle,
Director, Information Technology and Financial Management Group at (202) 205-' [Exemption         2]


Attachments
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                     Independent Auditors' Report

Office of Inspector General
U.S. Small Business Administration:

We have audited the accompanying consolidated balance sheets of the U.S. Small Business
Administration (SBA) as of September 30, 2007 and 2006, and the related consolidated
statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as "consolidated financial statements") for the years then ended. The
objective of our audits was to express an opinion on the fair presentation of these consolidated
financial statements. In connection with our fiscal year 2007 audit, we also considered SBA ' s
internal controls over financial reporting and tested SBA' s compliance with certain provisions of
applicable laws, regulations, contracts, and grant agreements that could have a direct and material
effect on these consolidated financial statements.

SUMMARY

As stated in our opinion on the consolidated financial statements, we concluded that SBA's
consolidated financial statements as of and for the years ended September 30, 2007 and 2006, are
presented fairly, in aU material respects, in conformity with U.S. generally accepted accounting
principles.

As discussed in Note 16 to the consolidated financial statements, SBA changed its method of
reporting the reconciliation of budgetary resources obligated to the net cost of operations in fiscal
year 2007.

Our consideration of internal control over financial reporting resulted in the following condition
being identified as a significant deficiency:

•   Improvement needed in management' s information technology security controls.

However, we did not consider this significant deficiency to be a material weakness.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and
grant agreements disclosed one instance of noncompliance with the following law that is required
to be reported under Government Auditing Standards, issued by the Comptroller General of the
United States, and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements f or Federal Financial Statements:

•   Debt Collection Improvement Act of 1996 (DClA)

The following sections discuss our opinion on SBA' s consolidated financial statements; our
consideration of SBA' s internal control over financial reporting; our tests of SBA's compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements; and
management's and our responsibilities.




                                '::'MS 1.._ ~         ~   ..I   ~ '1f"'::!C C'   ?,,::r 'i ~ ~-.,~"";;:"I:::' : t-·t :.: :S
                                ,.   e.":!.~   ~;,.       )f   \-.r'· K:"   ",'° 1 ,1 I"!I:I' -~, - ::.it.::..",', I '::
OPThTJON ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of SBA as of September 30,
2007 and 2006, and the related consolidated statements of net cost, changes in net position, and
the combined statements of budgetary resources for the years then ended.

In our opinion, the consolidated fmancial statements referred to above present fairly , in all
material respects, the fmancial position of SBA as of September 30, 2007 and 2006, and its net
costs, changes in net position, and budgetary resources for the years then ended in conformity
with U.S. generally accepted accounting principles.

As discussed in Note 16 to the consolidated financial statements, SBA changed its method of
reporting the reconciliation of budgetary resources obligated to the net cost of operations in fiscal
year 2007.

The information in the Management Discussion and Analysis, Required Supplementary
Stewardship Information, and Required Supplementary Information sections is not a required part
of the consolidated financial statements, but is supplementary information required by U.S.
generally accepted accounting principles and OMB Circular No. A-136, Financial Reporting
Requirements. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information, and accordingly, we express no opinion
on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over fmancial reporting was for the limited purpose
described in the Responsibilities section of this report and would not necessarily disclose all
deficiencies in the internal control over financial reporting that might be significant deficiencies
or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects SBA' s ability to initiate, authorize, record, process,
or report financial data reliably in accordance with U.S. generally accepted accounting principles
such that there is more than a remote likelihood that a misstatement of SBA ' s consolidated
financial statements that is more than inconsequential will not be prevented or detected by SBA' s
internal control over financial reporting. A material weakness is a significant deficiency, or
combination of significant deficiencies, that results in more than a remote likelihood that a
material misstatement of the financial statements will not be prevented or detected by SBA' s
internal control.

In our fiscal year 2007 audit, we consider the deficiency described in Exhibit I to be a significant
deficiency in internal control over fmancial reporting, and we believe that the significant
deficiency described in Exhibit I is not a material weakness. Summaries of the status of the prior
year material weakness and reportable conditions, and management's response to our fmdings are
included as Exhibits III, IV, and V, respectively.

We also noted certain additional matters that we reported to SBA ' s management in a separate
letter dated November 14, 2007.


                                                  2
COMPLIANCE AND OTHER MATTERS

Our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements, as described in the Responsibilities section of this report, exclusive of those referred
to in the Federal Financial Management Improvement Act oj 1996 (FFMIA), disclosed one
instance of noncompliance that is required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04, and is described below.

Debt Collection Improvement Act of 1996 (DCIA). During our testwork, we noted that SBA
did not consistently follow Treasury guidelines when referring delinquent debts for collection.
Specifically, we noted that 47 of 140 delinquent debt referral transactions tested were not referred
timely or were coded improperly in SBA ' s Loan Accounting System . Of the 47 exceptions noted,
41 of the items were referred only to the Treasury Offset Program (TOP), when the DCIA
requirement is to refer delinquent debts to both the TOP and the Treasury Servicing Program. As
a result, management did not refer approximately 24,000 delinquent debts for Treasury cross­
servicing. SBA management believes that the issue stems from outdated standard operating
procedures and a lack of clear instructions to field offices regarding the referral of delinquent debt
to Treasury. SBA management stated it has established revised protocols that will provide clear
instructions to field offices to use in the future regarding how to properly refer charge-offs to the
TOP and Treasury Servicing program in accordance with DCIA. In regards to the remaining 6
items noted as exceptions above, the referral to Treasury for servicing did not occur within 180
days of delinquency as required by DCIA. According to SBA management, efforts are under way
to address this situation.

The results of our tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in FFMIA, disclosed no other instances of noncompliance or other
matters that are required to be reported herein under Government Auditing Standards or OMB
Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which SBA ' s financial management
systems did not substantially comply with the three requirements discussed in the Responsibilities
section of this report.

                                             *****
RESPONSmILITIES

Management's Responsibilities. The United States Code Title 31 Section 3515 and 9106 require
agencies to report annually to Congress on their financial status and any other information needed
to fairly present their fmancial position and results of operations. To meet these reporting
requirements, SBA prepares and submits financial statements in accordance with OMB Circular
No. A-136 .

Management is responsible for the consolidated financial statements, including:

• 	 Preparing the consolidated fmancial statements in conformity with U.S. generally accepted
    accounting principles

• 	 Preparing the Management Discussion and Analysis (including the performance measures),
    Required Supplementary Information, and Required Supplementary Stewardship Information



                                                  3
• 	 Establishing and maintaining effective internal control

• 	 Complying with laws, regulations, contracts, and grant agreements applicable to SBA,
    including FFMlA.

In fulfilling this responsibility, management is required to make estimates and judgments to
assess the expected benefits and related costs of internal control policies.

Auditors' Responsibilities. Our responsibility is to express an opinion on the fiscal year 2007
and 2006 consolidated financial statements of SBA based on our audits. We conducted our audits
in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and OMB Bulletin No. 07-04 . Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable
assurance about whether the consolidated fmancial statements are free of material misstatement.
An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of SBA ' s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

• 	 Examining, on a test basis, evidence supporting the amounts and disclosures in the
    consolidated fmancial statements

• 	 Assessing the accounting principles used and significant estimates made by management

• 	 Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In plarming and performing our fiscal year 2007 audit, we considered SBA' s internal control over
financial reporting by obtaining an understanding of the SBA's internal control , determining
whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the consolidated financial statements. We limited our internal control testing to those
controls necessary to achieve the objectives described in Government Auditing Standards and
OMB Bulletin No. 07-04. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers ' Financial Integrity Act of 1982. The objective of our
audit was not to express an opinion on the effectiveness of SBA 's internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the SBA' s internal
control over financial reporting.

As part of obtaining reasonable assurance about whether SBA 's fiscal year 2007 consolidated
financial statements are free of material misstatement, we performed tests of SBA' s compliance
with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with
which could have a direct and material effect on the determination of SBA financial statement
amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07­
04, including certain provisions referred to in FFMIA. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws,



                                                  4
regulations, contracts, and grant agreements applicable to SBA. However, providing an opinion
on compliance with laws, regulations, contracts, and grant agreements was not an objective of our
audit, and accordingly, we do not express such an opinion.

Under OMB Bulletin No. 07-04 and FFMIA, we are required to report whether SBA ' s financial
management systems substantially comply with (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the Uruted States Government
Standard General Ledger at the transaction level. To meet this requirement, we performed tests of
compliance with FFMlA Section 803(a) requirements.



SBA's response to the findings identified in our audit report is presented in Exhibit V. We did not
audit SBA ' s response, and accordingly, we express no opiruon on it.

This report is intended solely for the information and use ofSBA's management, SBA's Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S . Congress, and
is not intended to be, and should not be, used by anyone other than these specified parties.




November 14,2007




                                                5
                                                                                                       Exhibit I
                                      U.S. Small Business Administration 

                                             Significant Deficiency 




Introduction
The internal control deficiency discussed in this report and the U.S. Small Business Admirustration's (SBA)
progress toward correcting it are discussed in the context of SBA' s orgaruzational structure and its ability to
obtain funding to take corrective action. Exhibit I herein describes the control deficiencies, which collectively
resulted in the significant deficiency reported below, for the year ended September 30, 2007, and our
recommendations thereon. The status of prior year compliance and internal control deficiencies are reported in
Exhibits II, III, and IV, respectively, and SBA management's response is presented in Exhibit V.

(1) Improvement Needed in Management In/ormation Technology Security Controls

During fiscal year 2007, we noted that SBA made progress in several areas in its efforts to address prior year
Information Technology (IT) internal control deficiencies. Despite these improvements, deficiencies continue to
exist in the areas of security access controls, software program changes, and end user computing.
Security Access Controls

Integral to an organization's security program management efforts, technical security access controls for systems
and applications should provide reasonable assurance that IT resources such as data files, application programs,
and IT-related facilities/equipment are protected against unauthorized modification, disclosure, loss, or
impairment.

A summary of the security access control deficiencies we identified during the fiscal year 2007 SBA financial
audit follow:
• 	 There are no procedures documented for the sanctions process against the personnel not compliant with
    existing SBA security policies.

• 	 The Office of the ChiefInformation Officer personnel/management (collectively referred to herein as OCIO)
    does not maintain enough storage capacity for the server audit logs.

• 	 OCIO does not retain the logs long enough to allow for a sufficient review.

• 	 OCIO does not have formal day-to-day operating procedures documented for data center employees, which
    include segregation of critical functions.




                                                       1-1 

                                                                                                          Exhibit I
                                      u.s. Small Business Administration
                                              Signjficant Deficiency



Recommendations - security access controls:

      We recommend that:

      1. 	 OCIO implement a formal sanctioning policy for those personnel and contractors who do not complete
           the required annual computer security training program.

      2. 	 OCIO allocate a larger storage space for audit logs.

      3. 	 OCIO retain audit logs for longer periods (at least a week) to enable sufficient management review.

      4. 	 OCIO develop and implement specific policies and procedures outlining the day-to-day actions
           performed by data center employees.

Software Program Changes
The primary focus of an organization' s software change/configuration management program is on controlling the
software changes made to systems and applications in operation. Without such controls, there is a risk that
security features could be inadvertently or deliberately omitted or turned off, or that processing irregularities or
malicious code could be introduced into the IT environment.

A summary of the software program change control deficiencies we identified during the fiscal year 2007 SBA
financial audit follow:
• 	 The configuration baselines for the Disaster Credit Management System (DCMS) have not been updated
    with information from the last change to system settings.

• 	 The configuration baselines for the LAS do not contain a date indicating when it was last updated.

Recommendations -	 software program changes:

      We recommend that:

      5. 	 OCJO inform application service providers of policies and procedures for regularly updating DCMS
           configuration baselines and dates for major applications and general support systems.

      6. 	 OCIO create policies that mandate documentation of all noncompliance with established SBA LAS
           configuration benchmarks and require management approval.




                                                        1-2 

                                                                                                      Exhibit I
                                     u.s. Small Business Administration
                                            Significant Deficiency



End User Computing
End user computing tools/programs (e.g., spreadsheets and other user-developed programs) present the need for a
unique set of general control needs within an organization. By its nature, end user computing brings the
development and processing of information systems closer to the user. While this environment may not typically
be subjected to the same level of rigor and structure as an IT general controls environment, we believe policies
and procedures in this area are important to the overall IT environment. During our review, we noted that the
Office of the Chief Operating Officer (COO) has not documented policies and program offices have not
documented procedures for end user computing, specifically enforcing access controls over critical end user
programs.

Recommendations - end user computing:

      We recommend that:

      7. 	 COO develop and implement policies for end user computing, specifically enforcing user-level access
           controls over existing programs and data objects.

      8. 	 All program offices identify critical end user programs and develop end user computing procedures in
           accordance with end user policies.




                                                      1-3
                                                                                                            Exhibit IT
                                       u.s. Small Business Administration
                                       Status of Prior Year Noncompliance



Fiscal Year 2006 Noncompliance                                   Fiscal Year 2007 Status of Noncompliance
Federal Financial Management Improvement Act                     The results of our tests of compliance with FFMlA in
of 1996 (FFMIA) - FFMlA requires Federal agencies                fiscal year 2007 disclosed no instances in which SBA
to be in substantial compliance with the criteria listed         is in substantial noncompliance with FFMlA.
below:

•   Federal financial management systems
    requirements

•   Federal accounting standards

•   U.S. Standard General Ledger (USSGL) at the
    transaction level

During fiscal year 2006, our tests indicated instances in
which SBA's information systems did not substantially
comply with the first criteria listed above regarding
Federal financial management systems requirements.




                                                           2-1
                                                                                                             Exhibit ill
                                      U.S. Small Business Administration
                                     Status of Prior Year Material Weakness



Fiscal Year 2006 Finding                                    Fiscal Year 2007 Status of Finding

During fiscal year 2006, we reported a material             During fiscal year 2007, SBA made significant
weakness in internal control related to SBA's financial     operational improvements over the controls centered
reporting process.                                          on funds management, fmancial accounting, and
                                                            account balance reviews. Additionally, SBA enhanced
                                                            its procedures to identify areas of risk in its financial
                                                            systems and reporting processes to better assess
                                                            whether fmancial information is adequately reported in
                                                            the fmancial statements and note disclosures.

                                                                Therefore, in fiscal year 2007, this matter was closed.




                                                          3-1
                                                                                                                 Exhibit IV
                                         U.S. Small Business Administration
                                       Status of Prior Year Reportable Conditions



Fiscal Year 2006 Findings)                                      Fiscal Year 2007 Status of Findings

1.   Improvement needed over budgetary controls                 During fiscal year 2007, SBA made significant, overall
     surrounding obligations                                    operational improvements over budgetary controls
                                                                centered on travel vouchers and undelivered orders,
                                                                financial accounting, and account balance reviews. In
                                                                addition, our testwork did not identify any significant
                                                                misstatements in the amounts reported.

                                                                Therefore, this matter was closed in fiscal year 2007.

2.   Improvement needed in management information               During our review of SBA' s information technology
     technology security controls                               (In general and application controls, we noted
                                                                improvements in formalizing policies and procedures
                                                                over granting users emergency access, formalizing
                                                                continuity of operations plan (COOP), and
                                                                documenting reviews of remote users. However, we
                                                                continued to identify opportunities for SBA to improve
                                                                its internal controls. The control deficiencies that
                                                                continue to exist are in the following areas: security
                                                                access controls, software program changes, and end
                                                                user computing.

                                                                Therefore, in fiscal year 2007, the presentation of the
                                                                issue was modified to reflect current year operations,
                                                                and we continue to report a significant deficiency in
                                                                internal controls as it relates to IT systems and their
                                                                impact on the consolidated financial statements. See
                                                                Exhibit I for additional information.




I Effective for periods ending on or after December 15,2006, Statement of Auditing Standards (SAS) No. 112 replaces SAS
  o. 60 and establishes new criteria for evaluating internal control deficiencies. Under SAS No. 60, the auditor must evaluate
identified control deficiencies and determine whether those deficiencies, individually or in combination, are significant
deficiencies or material weaknesses. Further, the auditor must communicate, in writing, significant deficiencies and material
weaknesses (including those identified in prior audits but not yet remediated) to management and those charged with
governance.


                                                             4-1
                                                                                      Exhibit V
                      U.S. Si\lALL nUS li\ ESS AD:\l1:-\!STIU TIO.'i 

                                W:\S lIl:\ GTO:\ , D.C.   ~O.j I (j 





CFO Response to Draft Audit Report on FY 2007 Financial Statements


DATE:         November 14, 2007

TO:            Debra Ritt, Assistant 10 for Auditing

FROM:         Jennifer Mmef Financial Officer

SUBJECT:      Draft Audit Report on FY 2007 Financial Statements

The Small Business Administration is in receipt of the draft Independent Public
Accountant report from KPMO that includes the auditor's opinion on the financial
statements and review of the Agency's internal control over financial reporting and
compliance with laws and regulations. The IPA audit of the Agency's financial
statements and related processes is a core component of SBA's financial management
program.

We are very pleased that the SBA has received an unqualified audit opinion from the
independent auditor with no reported material weaknesses. We believe these results
accurately reflect the quality of the Agency's financial statements and our improved
accounting, budgeting and reporting processes. As you know, the SBA has worked hard
over the past several years to address the many findings from our independent auditors.
Our core fmancial reporting data and processes have improved substantially and we are
proud that the results of our efforts have been confirmed by the independent auditor.

The IP A's report includes a finding that during the year the Office of Capital Access was
not in compliance with the Debt Collection Improvement Act, which requires agencies to
refer outstanding receivables that are delinquent over 180 days to Treasury for cross­
servicing. The OCA was referring loans for Trea")ury offset, but through a loan system
coding error one of SBA's servicing offices was not referring the same loans for cross­
servicing. Out of date instructions to SBA's loan servicing offices and an incomplete
standard operating procedure on loan servicing contributed to the servicing office's
misunderstanding of the proper procedure for recording charged off loans.

Upon discovering this Treasury referral issue, SBA portfolio management officials
worked with the OCIO to immediately refer the backlog of 24,000 loans for $1 .3 billion.
This referral action was completed by July 15,2007. A mitigation plan is in place to
ensure that this error does not occur in the future. In addition, the SBA reminded all
servicing centers of the procedures for processing charge-off actions, including Treasury
                                                                                        Exhibit V

referrals, that have been in effect since August 26, 1999. This reminder was provided to
all servicing offices by August 30, 2007.

SBA's portfolio management office currently has a project underway to revise the SOP
on loan liquidation to address more completely the Treasury referral procedures for
charged off loans. This project is due for completion by December 12, 2007. As a
follow up to this action SBA's portfolio management office is monitoring samples of
monthly charged off loans to ensure that the loans have been correctly classified for
Treasury referral. As a final step, the portfolio management officials will follow up with
any servicing center that has incorrectly classified charged off loans for Treasury referral.

We appreciate all of your efforts and those of your colleagues in the Office of the
Inspector General as well as those ofKPMG. The independent audit process continues to
provide us with new insights and valuable recommendations that will further enhance
SBA's financial management practices. We continue to be committed to excellence in
financial management and look forward to making more progress in the coming year.
